 

IN THE

Supreme Court of the United States

ANTONIO PASSARO, JR.,
Petitioner,

v.

COMMONWEALTH OF VIRGINIA, ET AL.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,854 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 29, 2019.

iL,

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
